Supreme Court, U.S.
FILED

-8293
.1

No.

MAY 2 6 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

Louis John Fontanez

— PETITIONER

(Your Name)
vs.

i

United States of America_RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals for the Eighth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Louis John Fontanez
(Your Name)

pro se representation
Idg. No. 18596-030 ;
(Address)
FCI-Milan, P.O. Box 1000
Milan, MI. 48160
(City, State, Zip Code)

(Phone Number)

ORIGINAL

QUESTIONS PRESENTED
Was counsel constitutionally ineffective because he failed to consult or hire expert
witnesses to investigate tte but-for causation of the victim's injury in a case where
the petitioner faced the "death or serious bodily injury results" penalty enhancement
under 21 U.S.C. § 841(b)(1)(C)?
Did the lower courts: commit reversible error by using the performance of the
co-defenchnt's counsel to deny the petitioner's §2255 claim of ineffective assistance
of counsel?
Did the lower courtU commit reversible error when they denied the Petitioner's §2255
motion based ujjon the probable guilty verdict at trial rather than the liklihood
that the petitioner would Have pleaded guilty in a case involving a guilty jjlea?
Was the {petitioner's guilty plea sustained in violation of due process warranting
habeas relief where the district court repeatedly denied the petitioner's motions
for the discovery needed to meet the circuit's threshold to show prejudice in a
§ 2255 'failure to hire expert si'1 claim? Or alternatively, is the Eighth Circuit's
requirement that a prisoner Hire their own expert to present testimony to support
a rfailure to hire experts' §2255 ineffective assistance of counsel claim so
burdensome tHat it resulted in tidelower courty sustaining the petitioner's guilty
pLea in violation of due process warranting habeas relief?
Did the courts below commit reversible error by denying petitioner's §2255 ineffective
assistance of counsel claims without conducting an evidentiary hearing?
Did the lower courts commit reversible error by denying a Certificate of Appealability
regarding the petitioner's § 2255 ineffective assistance of counsel claims?

-i-

LIST OF PARTIES
!

[xl All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
!
petition is as follows:

I

:
i

:

RELATED CASES
- Gaylord v. United States, Bo. 15-1297, U.S. Cburt of i%>peals for the Seventh
Circuit. Judgment entered Jul. 12, 2016.
i

I

I
i

i

!

-ii-

i

■I-

;
-r

TABLE OF CONTENTS
i

1

OPINIONS BELOW
i

JURISDICTION

2

i

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

5

REASONS FOR GRANTING THE WRIT

7

CONCLUSION

21

INDEX TO APPENDICES
I

APPENDIX A: 28 U.S.C. § 2255
!

APPENDIX B: Petitioner's Motion to Compel Counsel to Surrender Case File, 09/09/19
APPENDIX C: District Court's Order Denying In Part Petitioner's Motion to Compel
Counsel to Surrender Case File, 09/24/19.
APPENDIX D: Petitioner's § 2255 Motion to Vacate, Set Aside, or Correct Sentence,
04/21/20
APPENDIX E: Petitioner's Motion for a Substitute Judge, 04/24/20.
APPENDIX F: District Court's Order Denying Petitioner's Motion for Substitute
Judge, 04/25/20.
APPENDIX G: District Court's Order dismissing Grounds 1-5 and 7 of Petitioner's
§2255 Motion to Vacate, directing the government to respond to Ground
6, and scheduling an evidentiary hearing on Ground 6, and appointing
counsel for Ground 6.
!

i

-iii!

APPENDIX H: District Court's Order denying Petitioner's Request for Leave to Conduct
Discovery, and granting Motion for Leave to Proceed in Forma Pauperis,
05/26/20.
APPENDIX I: Eighth Circuit Court of Appeals Order denying Certificate of Appealability,
10/22/20.
APPENDIX J: Counsel's Appellant's Petition for Rehearing En Banc, 12/07/20.
APPENDIX K: Petitioner's pro se Petition for Rehearing, 12/07/20.
APPENDIX L: Petitioner's pro se Clarification for the Court Regarding Petitions
For Rehearing and Motion for Appointment of Counsel, 12/21/20.
APPENDIX M: Eigth Circuit Court of Appeals Order denying both applications for
rehearing, and Motion for Appointment of Counsel, 01/06/21.

-iv-

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES
Anderson-V. United States, 981 F.3d 565,

X7Ercrr7TD2(jjTrrrrrrrr:.....................

11, 12, 18, 20

Burrage v. Lhited States, 571 U.S. 204,
134 S. Ct. 881, 18/ L. Ed. 2d 715 (2014) .........

10, 11, 14, 17

Eldridge v. Atkins, 665 F.2d 228,
~(8tti Cir. 1981).....................................................

9

Poster v. Lockhart!,1 9 0.3d 722,
(Sth Cir. 1993) ......................................................

9

Gaylord v. United States, 829 F. 3d 500,
T/th Cir. 2016)......................................................

12, 18, 20

Hill v. Lockhart, 474 U.S. 52,
106 S. Ct. 366, 88 L. Ed. 2d 203 (1985) ...........

15

ttimmelman v. Morrison, 477 U.S. 365,
106 S. Ct. 25/4, 91 L. Ed. 2d 305 (1986) .........

9

Lee v. United States, 582 U.S. 1958,
13/ S. Ct. 198 L. Ei. 2d 476 (2017)................ .

16

Long v. United States, 847 F..3d 916,
(/th Cir. 2017)......... ............................ .............

18

Matthews v. United States, 114 F.3d 112,
l8th Cir. 199/)......................................................

15

Miller-El v. CockreLl, 537 U.S. 322,
123 S. Ct. 1029, 154 L. Ed. 2d 931 (2003) ____

17

Rodela-Aguilar v. United States, 596 F.3d 457,
18th Cir. 2010)........“ “............ .........................

_18

Roe v. Flores-Ortega, 528 U.S. 470,
120 S. Ct. 1020, 143 L. Ed. 2d 985 (2000) ....

16

Slack v. McDaniel, 529 U.S. 473,
DU" S. a. 1595, 146 L. ffl. 2d 542 (2000)

17

Thompson v. United States, 872 F. 3d 560,
(Sth Cir. 2017)...........................................

15

United States v. Poitra, 2013 U.S. Dist.
“LEXIS 206903 (D. N.D. 2013) ......................

17, 18

-v-

TABLE OF AUTHORITIES (continued)
PAGE NUMBER

STATUTES AND RULES

21 U.S.C. § 841(b)(1)(C) ................................................... 9, 10, 11
17
28 U.S.C. § 2253 ..................................................................
9-21
28 U.S.C. § 2255 ........................................................... .
Rules Governing Section 2255 Proceedings, Rule 6
Rules Governing Section 2255 Proceedings, Rule 8(a)
Rules Governing Section 2255 Proceedings, Rule 11(a)
OTHER
United States Constitution, Amendment 6
United States Constitution, Amendment 5

-vi-

IN THE

I

SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix _L
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished. Note: No opinion available, only the one sentence denial.
The opinion of the United States district court appears at Appendix
the petition and is
j

___ to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

!'

JURISDICTION

[x] For cases from federal courts:

:

The date on which the United States Court of Appeals decided my case
was -10/22/20_____________ :
[ ] No petition for rehearing was timely filed in my case.
[X] A timely petition for rehearing was denied by the United States Court of
01/06/21
Appeals on the following date:
, and a copy of the
order denying rehearing appears at Appendix__ ^___
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______
[ ] A timely petition for rehearing was thereafter denied on the following date:
____________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) on
to and including____
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

-2-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1. The Fifth Amendment of the United Stated Constitution provides:
"No person shall foe
deprived of lif®, liberty, or
property without due process of law; nor shall private
property foe takai for public use, without just compensation.M
2. The Sixth Amendment of the Ihited States Constitution ^provides:
"In all criminal prosecutions, the accused shall enjoy
the right to ... be informed of the nature and cause of
the accusation ... and to have the assistance of counsel
for his defense."
3. The statute undo: which the Petitioner was convicted, and for which the Petitioner
did not recieve effective counsell,1. 21 U.S.C.- § 841(b)(1)(C) provides:
"(C) In the case of a controlled substance in schedule
I or II, • • • such person shall be sentenced to a term
of imprisonment on not more than 20 years and if death
or serious bodily injury results from the use of the
substnace shall be sentenced to a term of imprisonment
of not less than twenty~years or more than life...'.'
4. The statute under which the Petitioner sought habeas corpus relief was 28 U.S.C.
§ 2255, which can be found in total in Appendix A.
5. tffhe Rule under which the Petitioner sought discovery from the district court,
Rules Governing Section 2255 Proceedings, Rule 6(a) and 6 (b) which provide:
M(a) Leave of court required. A judge may, for good
cause, authorize a party to conduct discovery under
the Federal Rules of Criminal Procedure or Civil
Procedure, or in accordance with the practices and
principles of law. If necessary fcr effective
discovery, the judge must appoint an attorney for
a mdving party who qualifies to have counsel appointed
under 18 U.S.C. § 3006A.
(b) Requesting discovery. A party requesting discovery
must provide reasons for the request. The request must
include any proposed interrogatories and requests for
admission, and must specify any requested documents."
6. Jhe Rule under which the Petitioner sought an evidentiary blearing from the
district court, Mules Governing Section 2255 Proceedings, Rule 8 which provides:
"(a) Determining whether to hold a hearing. If the
motion is not dimissed, the judge must review the
answer, dny transcripts or records of prior proceeding^,
and any materials submitted under Rule 7 to determine
whether an evidentiary hearing is warranted.'1

-3-

7. The Rule under which the Petitioner sought a Certificate of Appealability
from the courts below, Rales Governing Section 2255 Proceedings, Rule 11(a)
which provides,
"(a) Certificate <d£ appealability. The district court
must issue or deny a certificate of appealability
when it enters a final order adverse to the applicant.
Before entering the final order, the court may direct
the parties to submit arguments on diether a
certificate should issue. If the court issues a
certificate, the court must state the specific issue
or issues that satisfy the showing required by 28
U.S.C. § 2253(c)(2). If the court denies a certificate
a party may not appeal the denial, but may seek a
certificate from the court of appeals under Federal
Rule of Appellate Procedure 22..."

-4-

STATEMENT OF THE CASE
1. On October 23, 2017, the Petitioner distributed less than 1 gm of heroin (without
cocaine) to victim R.Z. Approximately 6 hours later, the victim was found
unresponsive by his wife. When police arrived,: they found the victim without
breathing or a pulse. Police performed CPR. When paramedics arrived, the victim
was breathing and had a pulse, but remained unconscious, "the paramedics administered
Narcan, and the victirtnregained consciousness.. At the scene, a syringe with
a mixture of cocaine and Heroin was found. At the hospital, the victim was
found to have opiates and cocaine in his blood.
2. On 04/18/18, the Petitioner and a co-defendait'were indicted by a federal
grand jury. Petitioner was indicted <an 2 charges, including 21 U.S.C. § 841(b)(1)(C).
3. On 11/27/18, 7 dayy before trial, the' Petitioner requested new counsel because
his counsel had done nothing to prepare a defense. However, after the district
judge personally endorsed counsel during a hearing on the matter, Petitioner
felt he had no choice, and kept his counsel. His motion for a new attorney
was denied.
4. On 11/30/18, 4 days before trial, Petitioner accepted a plea deal offered
by the government, and changed his plea to Count 2 (841(b)(1)(C)) to guilty.
5. On 04/11/19, the district court assessed punishment at 240 months imprisonment
plus a five year term of supervised release. Petitioner instructed his coundel
to appeal. Counsel failed to file a notice of appeal.
6. Because he received no response from his counsel to multiple requests for
his case file, Petitioner filed a Motion to Compel to Surrender Case File,
including work product and discovery, on 09/09/19. That motion was granted
in part, but Petitioner was refused discovery withtthe court saying it would
reconsider a discovery request after a § 2255 motion was filed. Appc. B and C.
7. On 04/21/20, the Petitioner filed a §2255 Motion to the district court challenging
the constitutionality of Us conviction on the following grounds: (l)Counsel
was ineffective for failing to investigate the case, (2)Counsel was ineffective
to file pre-trial motion to suppress evidence, (3)Petitioner did not knowingly
or voluntarily accept thfe plea agreement, (4)Counsel was ineffective for advising
Petitioner to accept flawed plea agreement, (5)Counyel was ineffective for
failing to file a motion to withdraw guilty plea prior to yentencing. (6)Counsel
was ineffective for failing to file a notice of appeal, and (7) Gbunsel's numerous
failures/errors constitute cumulative and constructive ineffective assistance
of counsel. See /^ppendix ©.
8. Also on 04/21/20, the Petitioner filed a Motion for Leave to Proceed in Forma
Pauperis, Motion to Seal § 2255 Motion and Brief, and a Motion for a Copy of
§ 2255 Petition.
9. On April 24, 2021, Petitioner filed a Motion for a Substitute Judge. Appx. £.
10. On April 25, 2021, the Court DENIED the Motion for Substitute Judge, DISMISSED
Grounds 1-5 and 7 of-the § 2255 Petitionf ORDERED the government to respond
to Ground 7, ORDERED appointment of counsel, and ORDERED an evidentiary Hearing

-5-

on Ground 6. Append ices F and G.
11. Not blowing that the Court had appointed counsel, and not requesting counsel,
the Petitioner, on May 4, 2021 filed a Motion for Leave to Conduct Discovery.
Also note that the Petitioner did not anticipate the Court would make a decision
on his § 2255 Motion in less than 4 days.
12. On May 26, 2021, the Court DENIED Leave to Conduct Discovery and the Motion
to Seal, and GRANTED the Motion for Leave to Proceed in Forma Pauperis. Appx. H.
13. On 07/09/20, afterran Evidentiary Hearing, the Court DENIED the remainder
of the Petitioner's §2255 Motion (Ground 6) and DENIED a Certificate of
Appealability.
14. On 07/21/20, the Petitioner filed a Notice of Appeal with the Eighth Circuit
Court of Appeals. No Appellant Brief was filed because the Petitioner received
notice from the Appeals Court that stated "no further filings are required."
15. On 10/22/20, the Court of Appeals DENIED the Certificate of Appealability. Appx. fl!.
16. Unbeknownst to the Petitioner, counsel filed an Appelant's Petition for Rehearing
En Banc regarding Ground 6 only on 12/07/20. Appx. J.
17. Ihe Petitioner, having no idea he had counsel, filed his own Petition for
Rehearing en Banc regarding Grounds 1 and 2 on 12/07/21. It is unclear if
the Petition was reviewed by the Appeals Court, or if it is the document filed
on 12/11/20, labeled MEMORANDUM. Appx. W.
18. finding out counsel also filed an application limited to Ground 6, on 12/21/20,
the Petitioner filed a "Defendant's Pro:Se Clarification For the Court Regarding
Petitions for Rehearing and Motion for Appointment of Counsel," specifically
requesting counsel be appointed for Grounds 1 and 2 of his § 2255 Motion. Appx. L.
19. On 01/06/21, the Court of Appeals DENIED Petitioner's Application for Rehearing
En Bidnc, Application for-Rehearing-,.
and Motion for Appointment of Counsel.
Appendix M.

M6-

REASONS BOR GRANTING THE PETITION
The decisions of the lower courts in this § 2255 proceeding violated the
Petitioner's right to effective counsel under the Sixth Amendment, and his right
to due process of law under the Fifth Amendment through multiple errors that
are in direct conflict with applicable decisions of this Court, are based upon
split Circuit Court precedents, and/or are issues of first impression that the
Circuit Court of Appeals refused to consider, all of which this Supreme Court
has the authority to remedy and remand.
First, the Petitioner clearly established that his counsel was constitutionally
ineffective for failing to investigate the "but-f or" causation defined ty this
Court in Burrage by failing to consult or hire expert witnesses. Petitioner established
prejudice by asserting the opinions such experts would have provided, and how
those opinions would have changed his decision to plead guilty. When the district
court dismissed this argument (Ground 1 of the § 2255 motion) as "meritless,"
and the Circuit Court denied a Certificate of Appealability upon "full review
of the record," a Circuit split was created -(Argument I).
Second, the district court flouted the Petitioner's Sixth Amendment right
to effective counsel by dismissing his ineffective assistance of counsel claim
as meritless by holding that co-defendant's counsel, not the Petitioner's counsel
was effective. This pro se Petitioner could find n® case lav; applicable to this
question, suggesting that this is a controversy.of first impression for this
Court. (Argument II)
Third, the district court's dismissal of Grounds 1 and 2 of the Petitioner's
§ 2255 motion clearly conflicted with this Court's applicable decisions when it
dismissed those grounds on the speculation tHht the Petitioner's claims would
not have resulted in an acquittal at trial, rather than analyzing the proper
standard of how his claim would have affected his decision to plead guilty or
proceed to trial, regardless of the probable outcome of a trial. (Argument III).
Fourth, and probably most immediate, both lower courts' decisions to deny
the Petitioner a COA conlict wil the applicable decisions of this Supreme Court
and the Eighth Circuit Court of Appeals (Argument IV).

-7-

Last, the Eighth Circuit's threshold to establish prejudice in a '^failure
to consult expert witnesses" argument require s that the Petitioner have access
to government discovery to meet it. This not only representssa circuit split,
but also resulted in a violation of the Petitioner's Due Process of Law right
when lie was repeatedly denied access to government discovery, and then his claim
was dismissed because he did not meet the threshold that required the government
discovery that the Court denied him. So, either the Eighth Circuit's threshold
is unconstitutionally burdensome.(compared to other circuits), or the Court
violated the Petitioner's substantive right to meaningfully access the courts(Argument V).

-8-

ARGUMENTS AMPLIFYING REASONS FOR WRIT
I. THE DISTRICT COURT ERRED IN DISMISSING THE DEFENDANT'S § 2255 CLAIM THAT HIS
COUNSEL WAS INEFFECTIVE FOR FAILING TO INVESTIGATE BY FAILING TO CONSULT OR HIRE
EXPERT WITNESSES TO INVESTIGATE THE "SERIOUS BODILY INJURY OR DEATH" ENHANCEMENT
OF HIS § 841(b)(1)(C) CONVICTION AND SENTENCE (ie: FAILED TO INVESTIGATE A BURRAGE
DEFENSE)
The district court dismissed Ground 1 of the Petitioner's § 2255 motion without
an evidentiary hearing, in violation of his Sixth Amendment right to effective
counsel. "It is the duty of the lawyer to conduct a prompt investigation of the
circumstances of the case and explore all avenues leading to the facts relevant
to guilt and degree of guilt or penalty." Eldridge v. Atkins, 665 ,F.2d 228 (8th
Cir. 1981), cert, denied, 456 U.S. 910, 72 L.Ed.2d 168, 102 S.Ct. 1760 (1982).
"Reasonable performance of counsel includes an adequate investigation of facts,
consideration of viable theories, and development of evidence to support those
theories," Foster v. Lockhart, 9 F.3d 722, 726 (8th Cir. 1993). "Because the
[adversarial] testing process generally will not function properly unless defense
counsel has done some investigation into the prosecution's case and into various
defense strategies, ... counsel has a duty to make reasonable investigations
or to make a reasonable decision that makes particular investigations unecessary."
Kimmelman v. Morrison, 477 U.S. 365 384, 91 L.Ed.2d 305, 106 S.Ct. 2574 (1986).
Recall the datails of this.case. The Petitioner distributed a small amount
of heroin only (no cocaine) to the victim. Over 6 hours later, the victim was
found unresponsive. A syringe was found in the victim's bathroom containing a
..mixture of heroin and cocaine. The victim was found to have evidence of both
cocaine and heroin in his blood. The victim also admitted to using alcohol and
anabolic steroids that day.
The Petitioner delivered this heroin as a favor to his nephew (and co-defendant)
who is an established drug dealer with a long criminal history. Despite the

-9-

Petitioner's lack of significant criminal history, the government decided to
seek a "death results" enhancement to the defendant's crime. This decision literally
put the Petitioner's life at stake. Without the "death results" enhancement, the
Petitioner would have had an offense level of 12 with a criminal history category
of I, resulting in a Guidelines Range of 10-16 months imprisonment. It's probable
that, without the "death results" enhancement, the Petitioner would have pled
guilty quickly, resulting in a 2 to 3 level reduction and a subsequent Guideline
Range that would:have made him eligible for probation, with a maximum sentence
of 12 months. With the "death results" enhancement, the Petitioner was exposed to a
mandatory sentence of 240 months in prison, and a resulting Guidelines Range of
235-293 months in prison. This is a 2,400% increase in the maximum penalty that the
Petitioner faced, and in all practicality, given the life expectancy of African American
males in the United States, resulted in a life sentence.
Thus, the stakes couldn't have been higher, and it was incumbent upon the
Petitioner's counsel to investigate a Burrage defense in this case. In the past, a
defendant could be found to have "caused" serious bodily injury or death under
§ 841(b)(1)(C) if the drug sold was shown to be a "substantial" or "contributing" factor
in producing serious bodily injury or death. However, in 2014, this Supreme Court
narrowed that standard by holding that "at least where the use of the drug distributed
by the defendant is not an independently sufficient cause" of death or serious bodily
injury, "a defendant cannot be liable under the penalty enhancement provision of 21
U.S.C. 841(b)(1)(C) unless such use is a but-for cause of the death or injury."
Burrage v. United States, U.S. 134, S.Ct. 881, 892, 187 L.Ed.2d 715 (2014).
In his § 2255 motion, the Petitioner asserted that an expert toxicologist would
have testified that it is possible that the cocaine, not purchased from the Petitioner,
substantially contributed to, or may have beeit the sole cause of the victim's injury, and
that the victim's response to Narcan does not prove beyond a reasonable doubt that
heroin was the "but-for" cause of the victim's overdose injury. The Petitioner asserted

-10-

that a toxicology expert would have testified that the effects of a combination of
cocaine, heroin, alcohol, and anabolic steroids together have never been studied, nor
has the effect of Narcan administration in such a situation, and therefore the expert
would have instilled reasonable doubt, and in this case, instilled the Petitioner with
the knowledge necessary to make a truly informed, intelligent, and knowing decision
about his plea. Moreover, in his §2555 motion, the Petitioner asserted that an expert
in drug use and abuse would have testified that it is very atypical for a heroin user
such as the victim to wait 6 hours to use the drugs he has purchased, and that the
combination of that timing and the unexplained presence of cocaine in the victim's
system supports the theory that the victim bought drugs from someone other than the
Petitioner closer to the time he overdosed. In short, with expert witness input, a
reasonable probability exists that the Petitioner would have had enough information
and confidence in his counsel (and hope) to reject the plea deal and intelligentlly
choose to proceed to trial. This is particularly likely considering that 240 months
is likely the"sentence the Petitioner would have received if found guilty at trial,
given his lack of criminal history and the victim's lack of permanent injury.
However, the Petitioner's counsel made no effort to investigate such a defense. In
fact, there is no indication on the record or in the case:file that counsel was even
aware of Burrage. Other circuits have held that a failure of counsel to investigate
expert opinion in an § 841(b)(1)(C) case constitutes ineffective assistance of counsel
leading to the prejudice of not knowingly or intelligently accepting a plea agreement.
For example, see Anderson v. United States, 981 F.3d 565, 576 (7th Cir. 2020):
[Cjounsel's decision not to further investigate the available
toxicology evidence was unreasonable. Whether heroin distributed
by defendant was a but-for cause of [victim's] death was
essential to the application of the death results enhancement.
... Further investigation of the toxicology evidence could have
therefore significantly informed Defendant of the viability of
a defense to that enhancement and, consequently, whether to
plead guilty.
Defendant's counsel never attempted to discover what the
results of such an investigation might be. ... [Counsel] could
not interpret the toxicological evidence on her own, nor did
-11-

she consult with an expert who could. ... Given the obvious
value of further investigation in this case, we cannot view
the decision of [Defendant]'s counsel to proceed ... without
investigating the causation issue as reasonable.
The Anderson decision built upon the precedent set in Gaylord v. United States, 829 F.3d
500 (7th Cir. 2016). In Gaylord, just like here, the defendant distributed an opiate
alone to the victim. The victim died from opiate "and cocaine intoxication." The Circuit
court found that because the district court did not hold a hearing, the record did not
show whether counsel was aware of the but-for causation standard, examined the medical
reports, and provided the defendant with the information necessary for a knowing and
voluntary guilty plea. The Court held that the defendant sufficiently alleged
ineffective assistance and remanded to the district court for an evidentiary hearing.
It is clear that the same should be done here.
Anderson and Gaylord are directly applicable to the instant case, and the fact that
the district court dismissed the Petitioner's 'failure to investigate' claim without
a hearing, and the 8th Circuit reviewed the cased and denied a Certificate of
Appealability ("COA"), a circuit split has been created that needs to be resolved by
this Honorable Court.
In short, the Petitioner properly and sufficiently asserted a failure to investigate
claim in his § 2255 motion. He deserves an evidentiary hearing, or COA.

II. THE DISTRICT COURT ERRED WHEN IT DISMISSED THE PETITIONER'S § 2255 CLAIM OF
INEFFECTIVE ASSISTANCE OF GOUNSEL BY BASING ITS DECISION ON THE (PERFORMANCE OF CO­
DEFENDANT'S COUNSEL
In his §2255 motion, the Petitioner alleged that his counsel's deficient
■performance resulted in prejudice because the result was his unknowing and involuntary
decision to accept the plea deal. The Petitioner argued that counsel was deficient
for not consulting or hiring expert witnesses (see Argument I above). The district
court improperly dismissed this claim on the basis that co-defendant's counsel did
consult and hire expert witnesses.

-12-

It is clear and reversible error for the district court to conflate or substitute
the co-defendant's counsel's performance for the performance of the defendant's counsel
when the claim is that defendant's counsel was constitutionally ineffective. The
district court appointed separate and independent counsel for the Petitioner and his
co-defendant. These two attorneys worked separately in different practices. Hearings
for each defendant were held separately without the other defendant or his counsel
present. When the Petitioner tried to talk directly with co-defendant's counsel, she
refused to speak with him. When Petitioner later requested the case file from co­
defendant's counsel, she appropriately refused. The record and case file support that
Petitioner's counsel never requested or received any of the results of co-defendant's
counsel's independent investigations or pre-trial motions. While co-defendant's counsel
generated 123 separate documents in investigating the defense of the Petitioner's
co-defendant to the one single documented by Petitioner's counsel for the Petitioner's
defense, none of co-defendant's counsel's documents were created to defend the
Petitioner. Clearly, the Petitioner's §2255 motion only dealt with his counsel's
performance. Yet, the district court repeatedly referred to the performance of co­
defendant's counsel when finding that the Petitioner did not meet his § 2255 burden
of demonstrating his counsel "was deficient. See, e.g. (all Document #81,. Appx. G):
Page 7: However, the government had a well-qualified toxicologist
and the co-defendant consulted another toxicologist.
Page 8: A toxicologist was hired by the defense in this case. It
was hired by the public defender who represented the co-defendant
of the petitioner. The opinions of that expert were available to
the petitioner...
To be clear, the record and case file shows that the Petitioner's counsel didnot
hire or consult with any expert witnesses while representing the Petitioner. The fact
both of the other parties in this case (the government and the co- defendant ) did
consult and hire expert witnesses only supports the Petitioner's claim that his counsel
was ineffective for not doing so. Moreover, the district court justifies its

-13-

erroneous finding that Petitioner's counsel was not ineffective because the expert
opinions obtained by co-defendant's counsel "were available to the defendant." However,
when analyzing counsel's effectiveness, the critical question isn't the availability;
of the evidence, but whether Petitioner's counsel made any effort to obtain the
available information. The record shows, and the Petitioner deary argued in his
§2255 motion that his counsel did not investigate the opinions of co-defendant's
experts, however this argument was totally ignored by the district court.
In short, the district court erred in finding that the Petitioner had sufficient
representation based upon the performance of the co-defendant's counsel and not on
the performance of his own counsel. Perhaps the district court was inferring that the
co-defendant's experts' eventual trial testimony would have also benefited

the

Petitioner. However, that is pure speculation on the part of the district court, and
it goes beyond the proper standard of review by making presumptions about judicial'
proceedings that never took place (see next argument). Regardless, based upon this
reversible error, the Petitioner's §2255 Ground 1 dismissal should be vacated and
remanded back to the district court for reconsideration, or COA.

III. THE DISTRICT COURT ERRED WHEN IT DISMISSED THE PETITIONER'S § 2255 CLAIMS BASED
UPON THE FINDING. THAT THE PETITIONER WOULD HAVE BEEN FOUND .GUILTY AT; TRIAL
Due to his appointed counsel's ineffectiveness, the Petitioner unintelligently and
involuntarily decided- to forego a trial and plead guilty. As a result he will spend
the remainder of his natural life in prison for a single, non-violent, less than lgm
drug transaction by a man with no significant criminal history. The record supports,
and the Petitioner demonstrated to the district court in his §2255 motion, that
appointed counsel did nothing to defend the Petitioner beyond show up at the required
hearings and (possibly) read the case file. Specifically, the Petitioner alleges that
counsel failed to investigate the facts, particularly in regards to a Burrage defense.
In fact, in the case file surrendered to the Petitioner by court order, there was

-14-

only a single document created by counsel, and that document was created after the
Petitioner had already unknowingly and involuntarily accepted the plea deal at
counsel's advice.
Because of this lack of representation, the Petitioner had no confidence counsel
would make the effort required to properly defend him at trial, and so he made the
uninformed decision to accept the plea deal.
No one has disputed counsel's deficient performance in this case... not the
government, the district court, nor counsel himself. However, the district court
summarily dismissed Grounds 1 and 2 of Petitioner's 2255 motion based upon the reasoning
that it did not matter if counsel did nothing at all, because the defendant would have
lost at trial regardless. See for example (Document 8, page 8, Appx. G):
There is no assurance that [expert testimony] would have
any liklihood of acquittal at trial...
Throughout its decision, the district court speculates on the impact of counsel's
deficient performance would have had on the outcome of a trial, but does not analyze
the impact of counsel's performance of the Petitioner's decision to plead guilty.
Thus, the district court applied the wrong 4tandard■to dismiss the Petitioner's §2255
claims. Both this Supreme Court and the Eighth Circuit have clearly held that in a
case involving a guilty plea, all the Petitioner need show is that, but for counsel's
ineffective performance, he would not have accepted the plea agreement and would have
proceeded to trial. See, Matthews v. United States, 114 F.3d 112, 114 (8th Cir. 1997)
("To show prejudice where the conviction is based on a guilty plea, the defendant
must show 'a reasonable probability that ... he would not have pleaded guilty and would
have insisted on going to trial' but for counsel's errors.") (quoting Hill v. Lockhart,
474 tJ.S. 52, 59, 106 S.Ct. 366, 88 L.Ed.2d 203 (1985)). See also, Thompson v. United
States, 872 F.3d 560, 567 (8th Cir. 2017) ("In the context of a plea deal, the
defendant can show prejudice if he shows there is a 'reasonable probability that, but
for counsel's errors, he would not have pleaded guilty and would have insisted on
-15-

going to trial."') (quoting Lee v. United States, 582 U.S. 137 S.Ct. 1958, 1964, 198
L.Ed.2d 476 (2017)).
In this case, the district court improperly considered whether the Petitioner would
have 'won' at trial. Whether the Petitioner would have 'won' at trial is not to be
considered. "That is because, while we ordinarily 'apply a strong presumption of
reliability to judicial proceedings, we cannot accord' any such presumption 'to judicial
proceedings that never took place.'" Lee, 582 U.S. at 1965 (quoting Roe v. FloresOrtega, 528 U.S. 470 482-83, 120 S.Ct. 1029, 145 L.Ed.2d 985 (2000)).
The Petitioner clearly demonstrated in his 2255 motion that he planned to go to
trial until the last minute, and he even moved the Court for new counsel just 3 days
before trial. Had District Judge Jarvey not improperly expressed a personal endorsement
of Petitioner's counsel, the Petitioner may be at home even now.
Moreover, the district court furthered its reversible error when it dismissed
Ground 2 of the Petitioner's §2255 motion using the same standard. In Ground 2,
the Petitioner asserts his counsel was deficient for failing to file a pre-trial motion
to challenge the eyewitness identification. The district court summarily dismissed this
claim based upon its speculation; not speculation that such a motion wouldn't have
merit, but on speculation that such a motion would have been denied because the
co-defendant's counsel filed a "similar" motion. Again, the district court erred in
dismissing this claim by improperly making a presumption regarding a "judicial process
that never took place." Lee, 582 U.S.
Perhaps most telling,- none of these"standards are cited in the district court's
deicsion (Document 8). Thus, the district court's dismissal of Grounds 1 and 2 of the
Petitioner's §2255 motion should be vacated, and the proceeding should be remanded back
to the district court to reconsider Grounds 1 and 2 using the proper standard of law.

IV. BOTH THE DISTRICT COURT AND THE CIRCUIT COURT ERRED IN DENYING PETITIONER A
CERTIFICATE OF APPEALABILITY FOR THE DISMISSAL OF GROUNDS 1 AND 2 OF HIS § 2255 MOTION

-16-

The Petitioner clearly showed a "denial of a constitutional right," specifically the
the denial of his Sixth Amendment right to effective counsel, particularly in regard
to his counsel's failure to investigate a Burrage defense. 28 U.S.C. § 2253(C).
Moreover, the Petitioner showed that "reasonable jurists could debate whether

•••

the petition should have been resolved in a different manner or that issues presented
were adequate to deserve encouragement to proceed further." Slack v. McDaniel, 529 U.S.
473, 484, 120 S.Ct. 1595, 146 L.Ed.2d 542 (2000). Additionally, the issuing of a COA
"does not require showing that the appeal will succeed," and "a court of appeals should
not decline the application ... merely because it believes the applicant will not
demonstrate an entitlement to relief." Miller-El v. Cockrell, 537 U.S. 322, 337, 123
S.Ct. 1029, 154 L.Ed.2d 931 (2003).
These thresholds were clearly met by the Petitioner, and therefore he respectfully
requests this Honorable Supreme Court to compel either lower court to issue a COA
regarding Grounds 1 and 2 of his original § 2255 motion. Note that it's not even clear
from the circuit court's one sentence denial why the circuit court denied issuing a
COA, or whether they reviewed the relevant record (Grounds 1 and 2).

V. THE DISTRICT COURT ERRED IN DENYING PETITIONER ACCESS TO THE DISCOVERY NECESSARY
TO MEET THE CIRCUIT'S THRESHOLD TO ESTABLISH THAT HIS COUNSEL WAS DEFICIENT FOR NOT
CONSULTING EXPERT WITNESSES, or in the alternative, THE CIRCUIT'S THRESHOLD
VIOLATED THE PETITIONER'S DUE PROCESS RIGHTS BECAUSE IT EFFECTIVELY RESTRICTED
ACCESS TO THE COURTS.
In the Eighth Circuit, a petitioner must provide to the court the actual testimony
an expert would have given, in anfaffidavit or other admissable document, in order to
establish prejudice for a § 2255 ineffective assistance of counsel claim based on
counsel's failure to consult or hire expert witnesses. "To prevail on a claim of
ineffective assistance of counsel based on a failure to retain and call an expert
witness requires evidence of what the testing would have shown and what testimony the
expert would have provided. Poitra has provided no such evidence, and this failure is
-17-

fatal to his claim." United States v. Poitra, 2013 U.S. Dist. LEXIS 206903 (D.N.D. July
2013) (citing Rodela-Aguilar v. United States, 596 F.3d 457, 462 (8th Cir. 2010).
However, compare this with the same standard of law in the Seventh Circuit, as
stated in Anderson: "Anderson's only burden is only to -'allege facts that, if proven,
would entitle him to relief.

He is not required at this stage to hire a toxicologist and

and prove the merits of further investigation before the court... Construing this pro;
se filing liberally, these allegations are sufficiently precise to satisfy Anderson's
burden." 'Anderson, 981 F.3d at 575 (quoting Gaylord, 829 F.3d at 506 (citing Long
v. United States, 847 F.3d 916, 920 (7th Cir. 2017)))(emphasis added). This is a clear
circuit split regarding the threshold to establish prejudice in this specific type of
ineffective assistance of counsel claim.
The Eighth Circuit version of this standard that the district court used to dismiss
the Petitioner's §2255 failure to investigate by failing to consult experts claim is
unreasonably difficult for a pro se prisoner Petitioner to meet, and, the Petitioner
argues, in and of itself represents an unconstitutional restriction on his right to
meaningful court access. When one adds the fact that the district court ignored the
Petitioner’s request for leave to amend and denied multiple of the^Petitioner's Motions
for Discovery to this already overly restrictive threshold of law, it becomes clear
that the district court effectively violated the Petitioner's Fifth Amendment right
to Due Process of Law.
To further explain; in order to meet this standard effectively requires the pro
se prisoner defendant to hire expert witnesses so that their likely' testimony can be
obtained. To hire an expert is difficult enough for an indigent defendant, but in order
to hire an expert and solicit their opinion, the defendant not only needs money, but
also needs the data for the expert to examine, data that is often under a "protective"
court order and therefore not available to the defendant to provide to the expert.
For an indigent pro se prisoner to meet such a standard is effectively impossible.
And such was the case here. Prior to filing his § 2255, the-:Petitioner researched

-18-

Eighth Circuit law and recognized the difficulty of this standard, understanding that
he would need the discovery and possibly the assistance of an attorney to meet it. Prior
to filing his §2255 motion, the Petitioner filed a Motion for Discovery (under his
original criminal case, no. 3:18-cr-00033). In its decision, the district court ordered
counsel to release the case file, but denied the Petitioner's request for discovery,
stating the the Petitioner's discovery request would be reconsidered after he filed his
§ 2255 motion. The Petitioner then filed his § 2255 motion and a separate Second Motion
for Discovery, stating good cause to obtain discovery in both. The Petitioner
specifically stated that he needed the "protected" first responder reports and lab/
toxicology/hospital reports so that he could seek his own expert witnesses and obtain
their opinions to add to his § 2255 motion to meet the Eighth Circuit standard. He also
requested leave to file an amended § 2255 motion and filed a Motion for Appointment of
Counsel.
The district court denied his Second Motion for Discovery, stating that is had
already denied a similar motion, and that it would not accept the pro se motion now
that counsel had been appointed. However, counsel was appointed only to represent the
Petitioner on Ground 6 of his § 2255 (Failure to File a Notice of Appeal - not at issue
in the instant petition), and counsel refused to help the Petitioner obtain discovery
or challenge any of the dismissed § 2255 grounds despite repeated requests by the
Petitioner. Despite this, the Petitioner attempted to contact several experts on his
own from prison, but either received no reply, or was told that no opinion could be
offered without the discovery documents. The Petitioner's request for leave to file an
amended § 2255 motion was ignored by the district court.
To deny discovery, but then require that a defendant meet a threshold that requires
that same discovery for the defendant to meet the threshold is a Due Process violation,
especially when that denial of discovery has no reasonable basis. The district court
cannot have it both ways. Either the threshold requiring the defendant to present an
expert opinion is too high, or the district court must release discovery that the
-19-

defendant needs to .reasonablyattempt to obtain that expert opinion.
Effectively, the district court both required the Petitioner to meet this threshold
and actively withheld the evidence the Petitioner needed to meet this threshold, and
that he could obtain from no other source. Thus, the district court violated the
Petitioner's Due Process right to meaningful court

access for habeas relief in a manner

that led to the summary dismissal of Ground 1 of his § 2255 motion.
Moreover, the,Petitioner would have met his burden under Seventh Circuit law because
he would have only have been required to assert facts to meet the prejudice threshold.
See Anderson 981 F.3d, supra; Gaylord 829 F.3d, supra. In Ground 1 of his §2255 motion,
the Petitioner asserts that an expert would have testified that the cocaine, may
'✓

have led to the victim's injury, that ...a response to Narcan did not unequivocally \
show that heroin was responsible for the victim's injury, and that the other drugs
ingested by the victim, including alcohol and anabolic steroids, could have substantially
contributed to the victim's injury. The Petitioner asserts that an expert would
testify that the timing of events and the presence in the victim's blood of cocaine
not sold by the Petitioner means that:the victim probably bought drugs from someone
other than the Petitioner before he overdosed, injecting reasonable doubt into
the government's argument. The Petitioner supported all of these assertions with
references, case citations, and even the notes of the co-defendant's expert interviews.
Yet, the district court erroneously ignored all of this, incorrectly

stating,

"The petitioner does not allege that the toxicologist retained by co-defendant's
counsel in this case or any other toxicologist would support the petitioner's claims."
(Document 8, page 8, Appendix G).
In summary, the district court's summary dismissal of Ground 1 of his §2255
motion should be vacated, discovery should be compeled, leave to amend the § 2255
motion should be granted, counsel should be appointed, and this proceeding should
be remanded to the lower court for reconsideration. In the alternative, the Eighth
Circuit's threshold for showing prejudice for counsel's failure to consult experts

-20-

i

»
I

should be found to be unconstitutional, the district court's summary dismissal of
Ground 1 should be vacated, and the § 2255 motion should be remanded back to the
district court with further guidelines for proper; reconsideration.

!I

I

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

'

I

i

Date:

M.

9Jis Zdll
i
1

!

Petition prepared ty:
M.t*. Kbeltzel
Reg. Db. 56366-039

i

:
!

-21-

